WAIVER

Supreme Court, U.S.
FILED

DEC 1 6 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-735
Tweed-New Haven Airport Authority

William Tong

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter, my
appearance as Counsel of Record for the following respondent(s):

City of New Haven

Ei

I am a member of the Bar of the Supreme Court of the United States.

tt

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

12/16/19

(Type or print) Name

John Rose, Jr.
111 Mr.

Firm

❑ Mrs.

❑ Miss

City of New Haven - Office of Corporation Counsel

Address

165 Church St. 4th Floor

City & State
Phone

Ej Ms.

New Haven, CT

203-946-7951

Zip
Email

06510

jrose@newhavenct.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Clare E. Kindall
Mark Mosier, Covington & Burling

RECEIVED
DEC 18 21119
OFFICE OF THE CLERK
SUPREME COURT, U.S.

